Annual Percentage Rate (APR)
for Purchases

APR for Balance Transfers

FNB Smart Rewards Credit Card
INTEREST RATE AND INTEREST CHARGES

0% introductory APR for the first 12 months from date of account opening
After that, your APR will be 13.49%, 17.49% or 21.49% based on your

creditworthiness
This APR will vary with the market based on the Prime Rate.

0% introductory APR for months from date of account opening when the balance is transferred
within the first 60 days following account opening.

After that, your APR will be 13.49%, 17.49% or 21.49% based on your
creditworthiness
This APR will vary with the market based on the Prime Rate
APR for Cash Advances

22.49%

Penalty APR and When It Applies

24.00%

How to Avoid Paying Interest
on Purchases

This APR will vary with the market based on the Prime Rate.
This APR may be applied to your account if you make your payment more than 60 days after the
payment due date.
How Long Will the Penalty APR Apply? If your APR is increased for this reason, the Penalty
APR will apply until you make six consecutive minimum payments when due. If you do not make
six consecutive payments when due, the Penalty APR will apply indefinitely.
Your due date is at least 21 days after the close of each billing cycle. We will not charge you any
interest on purchases if you pay your entire balance by the due date each month.

Minimum Interest Charge
If you are charged periodic interest, the charge will be no less than $1.50.
For Credit Card Tips from the Consumer To learn more about factors to consider when applying for or using a credit card, visit the website
Financial Protection Bureau
of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore
Annual Fees
Transaction Fees
• Cash Advance
• Balance Transfer
• Foreign Fees
Penalty Fees
• Late Payment
• Returned Payment

None

FEES

Either $10.00 or 3.0% of the amount of each cash advance, whichever is greater.
Either $10.00 or 4.0% of the amount of each balance transfer, whichever is greater.
2.0% of each transaction in U.S. dollars.
$25.00
$25.00

How we will calculate your balance: For Purchases we use a method called “average daily balance (excluding new purchases)”.
How we will calculate your variable APRs: We calculate variable APRs by adding a margin to the highest U.S. Prime Rate published in the
Money Rates section of The Wall Street Journal two business days (not weekends or federal holidays) before the closing date shown on your
billing statement. The APR may increase or decrease each month if the Prime Rate changes. Any new rate will be applied as of the first day
of your billing cycle during which the Prime Rate has changed. If the APR increases, you will pay a higher interest charge and may pay a
higher minimum payment. The Prime Rate is simply a reference index and is not the lowest interest rate available. If The Wall Street Journal
stops publishing the Prime Rate, we will select a similar reference rate.
Prime Rate: We add 10.24%, 14.24% or 18.24% based on your credit worthiness to the Prime Rate to determine the Purchase/Balance
Transfer APR. We add 19.24% to the Prime Rate to determine the Cash Advance APR. For example, if the Prime Rate is 4.75% we add
10.24%, 14.24% or 18.24% to the Prime Rate to determine your Purchase/ Balance Transfer Rate of 14.99%, 18.99% or 22.99%. Likewise,
if the Prime Rate is 4.75% we add a 19.24% margin to the rate to calculate the Cash Advance APR of 23.99%.
Discretionary Fees: You may incur other fees for using this card at your discretion: 1. Pay By Phone Fee – $10 for using a live representative
to make a payment via phone; doesn’t apply to payments made via our automated payment system. 2. Overnight Card Fee – If you request, and
we agree to overnight a card to you a $50 fee will be assessed. The fee is subject to change. Additional fees apply for Saturday delivery.
Cardholder Agreement: To review a copy of our Cardholder Agreement please visit www.fnb- online.com/creditcard.

Limitations & Warnings
• You may not use this account, to make a payment on this or any other credit account with us or our affiliates.
• You may not use or permit your account to be used to make any illegal transaction.
• You will only use your account for transactions that are legal where you conduct them. For example, Internet gambling transactions may be
illegal in your state.
• Display of a payment card logo by an online merchant does not mean that an Internet transaction is legal where you conduct it. We may
charge your account for such transactions.
• We will not be liable if you engage in an illegal transaction.
• We may deny authorization of any transactions identified as Internet gambling.
• You may not use your account to conduct transactions in any country or territory or with any individual or entity that is subject to economic
sanctions administered and enforced by the U.S. Department of the Treasury’s Office of Foreign Assets Control (OFAC). Use of your card in
those countries will be blocked.
Other Discretionary Fees
In addition to the other fees previously noted, you may incur the following fees for using this card at your discretion:
Pay By Phone
Fee

Overnight Card
Fee

$10.00 for using a live representative to make a
payment via telephone; this fee does not apply
to payments made via our automated telephone
payment system
If you request that we overnight a card to you
and we agree, a fee for expediting the creation
and mailing of a card will be assessed to your
overnight delivery on a business day is $50.00
and is subject to change. Additional fees apply
for Saturday delivery

The information about the costs of the card described in this application is accurate as of March 2020. This information
may have changed after that date. To find out what may have changed, call us at 1-800-555-5455.
Military Lending APR: Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not
exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: The costs
associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application fee
charged (other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than
certain participation fees for a credit card account). These disclosures can be provided to you verbally, toll-free, by calling 1-844-334-3810.

